OFFICE OF THE ATTORNEY GENERAL
Amit Agarwal
Solicitor General
PL-01 The Capitol
Tallahassee, FL 32399-1050
Phone (850) 414-3681
Fax (850) 410-2672
Amit.Agarwal@myfloridalegal.com

ASHLEY MOODY
ATTORNEY GENERAL
STATE OF FLORIDA

March 16, 2021

VIA ELECTRONIC DELIVERY

Honorable Scott S. Harris
Clerk of Court
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
Re:

Eric Kurt Patrick v. State of Florida, Case No. 20-7214**Capital Case***

Dear Mr. Harris:
On behalf of the Respondent in this matter, and pursuant to Rule 30.4, I respectfully
request a 30-day extension of time to file the Brief in Opposition, extending the March 25,
2021 deadline to April 26, 2021. The extension is necessary because the Office of the
Solicitor General has a number of pressing deadlines in various other matters with limited
staff assistance. Counsel for Petitioner has been contacted and takes no position on this
request for an extension.

Sincerely,
/s/ Amit Agarwal
Amit Agarwal
Counsel of Record

cc:

Suzanne Myers Keffer
Counsel of Record

